            INVENTORY REVALUATION FOR THE
           NAVY WORKING CAPITAL FUND BY THE
            NAVAL SUPPLY SYSTEMS COMMAND


Report No. D-2001-022               December 18, 2000



             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at: www.dodig.osd.mil/audit/reports or contact the Secondary
  Reports Distribution Unit of the Audit Followup and Technical Support
  Directorate at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                      Inspector General, Department of Defense
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-2885

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
CDB                   Central Data Base
CSIS                  Central Secondary Item Stratification
NAVSUP                Naval Supply Systems Command
WCF                   Working Capital Fund
                       Office of the Inspector General, DoD
Report No. D-2001-022                                             December 18, 2000
 (Project No. D2000FC-0279.000)

       Inventory Revaluation for the Navy Working Capital Fund
                by the Naval Supply Systems Command

                                  Executive Summary

Introduction. This report is the first in a series of reports on our audit work for the
FY 2000 Department of the Navy Working Capital Fund Financial Statements. We
performed this audit in response to the Chief Financial Officers Act of 1990, as
amended by the Federal Financial Management Act of 1994. For FY 1999, the
Department of the Navy reported $15.2 billion in net inventory using the allowance
method to approximate historic cost. In the future, DoD plans to use the historical cost
method of valuing inventories for presentation on the annual financial statements after
developing and implementing necessary changes in inventory accounting and
management systems. However, continued improvements in valuing inventory, as
discussed in this audit report, will improve the accuracy of reported inventory.

Objectives. The overall audit objectives were to determine whether the revaluation of
inventory from standard price to latest acquisition cost or net realizable value was
reasonable and to evaluate the processes and procedures that the Naval Supply Systems
Command used to revalue inventory. We also reviewed the management control
program as it related to the audit objectives. See Appendix A for a discussion of the
audit process.

Results. Journal entries that the Naval Supply Systems Command recorded in the
Defense Finance and Accounting Service Central Data Base to revalue inventory from
standard price to latest acquisition cost or net realizable value were erroneous.

       •   Journal entries to reduce inventory by the estimated cost to repair
           unserviceable inventory were understated by $170.7 million;

       •   journal entries to recognize the potential loss related to excess, obsolete, and
           unserviceable inventory were understated by $383.0 million; and

       •   journal entries to reduce inventory to latest acquisition cost were understated
           by $0.6 million.

As a result, as of June 30, 2000, inventory was overstated by $554.3 million. See the
Finding section for further details. See Appendix A for details showing that
management controls were adequate as they applied to the audit objectives.
Summary of Recommendations. We recommend that the Commander, Naval Supply
Systems Command, modify the formulas used in the revaluation spreadsheets to more
accurately value inventory. Changes to the revaluation spreadsheets should include:

    •   elimination of separate calculations to revalue shipboard inventory already
        included in the biannual Central Secondary Item Stratification,

    •   separate revaluation of aviation depot-level repairable inventory that has been
        capitalized after preparation of the biannual Central Secondary Item
        Stratification, and

    •   modification of the revaluation spreadsheets to include the value of “Inventory
        In-Transit Between Storage Locations – Site Inventory” in the calculations.

Management Comments. The Navy concurred with the recommendations and stated
that the Naval Supply Systems Command has discontinued separate revaluation
calculations for shipboard inventory already included in the Central Secondary Item
Stratification and modified inventory revaluation spreadsheets as recommended.
Management comments are discussed in the Finding section, and the complete text of
management comments appears in the Management Comments section of this report.




                                            ii
Table of Contents

Executive Summary                              i


Introduction
     Background                                1
     Objectives                                1

Finding
          Inventory Revaluation                2

Appendixes
     A. Audit Process
          Scope                                8
          Methodology                          9
          Management Control Program Review    9
          Prior Coverage                      10
     B. Report Distribution                   11

Management Comments
     Department of the Navy                   13
Background
     The audit was performed as part of our effort to meet the requirements of Public
     Law 101-576, the “Chief Financial Officers Act of 1990,” November 15, 1990,
     as amended by Public Law 103-356, the “Federal Financial Management Act of
     1994,” October 13, 1994. This report is the first in a series of Inspector
     General, DoD, reports on the FY 2000 financial statements for the Department
     of the Navy (Navy) Working Capital Fund (WCF). The Navy WCF finances
     nine primary activity groups, which provide support to the Navy and other
     authorized customers. The largest activity group is the Supply Management
     activity group, which includes Supply Management (Navy) and Supply
     Management (Marine Corps). This audit did not include a review of the Marine
     Corps portion of reported inventory.

     The Naval Supply Systems Command (NAVSUP) manages inventories for the
     Navy portion of the Navy WCF. The Navy Inventory Control Point and field
     organizations maintain logistical records supporting the general ledger account
     balances in the Defense Finance and Accounting Service Central Data Base
     (CDB). Both the logistical and financial records are maintained at standard
     price. Each month, NAVSUP computes and records journal entries in the CDB
     to revalue inventory from standard price to latest acquisition cost; to reduce the
     value of unserviceable inventory by the estimated cost to repair the inventory;
     and to revalue potential excess, obsolete, and unserviceable inventory to net
     realizable value. The Navy reported $15.2 billion in net inventory on the
     FY 1999 financial statements for the Navy WCF. As of June 30, 2000,
     NAVSUP recorded journal entries in the CDB that revalued inventory from
     $32.3 billion at standard price to $17.9 billion at latest acquisition cost or net
     realizable value.



Objectives
     The overall audit objectives were to determine whether the revaluation of
     inventory from standard price to latest acquisition cost or net realizable value
     was reasonable and to evaluate the processes and procedures that NAVSUP used
     to revalue inventory. We also reviewed the management control program as it
     related to the audit objectives. Appendix A discusses the audit scope and
     methodology and our review of the management control program.




                                          1
            Inventory Revaluation
            NAVSUP erroneously calculated supporting journal entries in the CDB
            that the Defense Finance and Accounting Service used to revalue
            inventory from standard price to latest acquisition cost or net realizable
            value. The calculations were erroneous because NAVSUP did not
            modify formulas used in the revaluation spreadsheets to accurately value
            the inventory on supply and combatant ships (shipboard inventories). In
            addition, the calculations were erroneous because NAVSUP did not
            include “Inventory In-Transit Between Storage Locations – Site
            Inventory” in the financial values entered in the revaluation spreadsheets.
            Journal entries to reduce inventory were understated as follows.

                    •   Journal entries to reduce inventory by the estimated cost to
                        repair unserviceable inventory were understated by
                        $170.7 million;

                    •   journal entries to recognize the potential loss related to
                        excess, obsolete, and unserviceable inventory were
                        understated by $383.0 million; and

                    •   journal entries to reduce inventory to latest acquisition cost
                        were understated by $0.6 million.

            As a result, as of June 30, 2000, inventory was overstated by
            $554.3 million.

Policy for Valuation of Inventory
     Federal Government Accounting Policy. Statement of Federal Financial
     Accounting Standards No. 3, “Accounting for Inventory and Related Property,”
     October 27, 1993, established the policy on inventory valuation for Federal
     Government entities. Accounting Standard No. 3 states that inventory should be
     valued at latest acquisition cost or historical cost, except for excess, obsolete,
     and unserviceable inventory, which should be valued at net realizable value, and
     unserviceable inventory held for repair, which should be valued at the net
     estimated cost of repair. Accounting Standard No. 3 provides two methods for
     valuing inventory held for repair: the allowance method and the direct method.
     The Navy WCF uses the allowance method. Accounting Standard No. 3 states
     the following:

                Under the allowance method, inventory held for repair shall be valued
                at the same value as a serviceable item, however, an allowance for
                repairs contra-asset account shall be established. The annual credits
                required to bring the repair allowance to the current estimated cost of
                repairs shall be recognized as current period operating expenses. As
                the repairs are made the cost of repairs shall be charged (debited) to
                the allowance for repairs account.




                                              2
NAVSUP Revaluation Process
    Revaluation spreadsheets were originally designed by the Under Secretary of
    Defense (Comptroller), the Defense Finance and Accounting Service, and
    NAVSUP. Using those spreadsheets, NAVSUP calculated inventory values as
    of June 30, 2000, and processed journal entries to revalue inventory shown in
    the CDB. The revaluation included the following series of journal entries to
    reduce inventory from $32.3 billion to $17.9 billion:

       •   reducing the value of inventory from standard price to latest acquisition
           cost, which removed of the surcharge included in the standard price
           ($9.8 billion);

       •   reducing the value of unserviceable inventory held for repair by the
           estimated cost of repair ($2.0 billion); and

       •   reducing the value of excess, obsolete, and unserviceable inventory to its
           net realizable value ($2.6 billion).

    Central Secondary Item Stratification. The Central Secondary Item
    Stratification (CSIS) process uniformly calculates inventory requirements and
    associated asset status for individual secondary items and generates summaries
    of essential information to provide the foundation for developing secondary item
    procurement and repair budgets and the Supply Systems Inventory Report
    provided annually to Congress. The CSIS is performed as of March 31 and
    September 30 of each year. The March 31 CSIS results were not available until
    June because the CSIS process is complex and time-consuming. The March 31,
    2000, CSIS results are used to revalue inventory at the end of each month from
    June through November 2000.

    Logistical Information Used in the Revaluation Process. NAVSUP personnel
    extracted logistical information from the March 31, 2000, CSIS and input the
    information in the revaluation spreadsheets. The CSIS categorized inventory as
    serviceable or unserviceable and further categorized inventory as approved force
    acquisition objective stock, war reserve material, economic retention stock,
    contingency retention stock, potential excess stock, and disposable excess stock.
    The value of inventory in each category was used to develop ratios that were
    applied to the recorded value of inventory as of June 30, 2000.

    Calculations to Revalue Inventory. NAVSUP personnel compiled the total
    value for inventory of $32.3 billion, at standard price as of June 30, 2000, from
    the CDB general ledger account balances. In adjusting that information,
    NAVSUP personnel made separate calculations to revalue non-shipboard
    inventory and shipboard inventory to approximate latest acquisition cost or net
    realizable value.

            Non-Shipboard Inventory. The revaluation spreadsheets applied the
    ratios developed from the CSIS to the inventory value shown in the CDB as of
    June 30, 2000, to estimate the value of inventory in each of the CSIS inventory
    categories. The spreadsheets calculated the adjustment to reduce inventory from
    standard price to latest acquisition cost by removing the surcharge included in
                                        3
    the standard price. The spreadsheets calculated the estimated cost to repair
    unserviceable inventory by applying the repair cost percentage developed in the
    CSIS to the unserviceable inventory categories. Finally, the spreadsheets
    calculated the potential loss on excess, obsolete, and unserviceable inventory by
    calculating the difference between inventory at latest acquisition cost and net
    realizable value of potential excess and disposable excess stock.

             Shipboard Inventory. When the revaluation spreadsheets were
    originally designed, shipboard inventory was not included in the CSIS. At that
    time, NAVSUP and the Navy Inventory Control Point did not have sufficient
    visibility of the inventory on ships to perform the necessary analysis to
    accurately categorize that inventory. To overcome that limitation, the
    revaluation spreadsheets made separate calculations for shipboard inventory.
    The revaluation spreadsheets accumulated the value of shipboard inventory and
    calculated the adjustment to reduce inventory from standard price to latest
    acquisition cost by removing the surcharge included in the standard price.
    NAVSUP did not make calculations for the estimated cost to repair the
    shipboard inventory and the potential loss related to excess shipboard inventory
    because shipboard inventory was generally in serviceable condition and held for
    current requirements.


Revaluation of Shipboard Inventory
    NAVSUP did not modify formulas used in the June 30, 2000, revaluation
    spreadsheets to recognize changes that occurred in the CSIS process and the
    capitalization of aviation depot-level repairable inventory. Failure to modify the
    formulas caused inventory to be overstated by $553.2 million. The
    overstatement occurred because journal voucher adjustments to reduce the
    estimated cost to repair unserviceable inventory were understated by a net
    $170.7 million. Other journal vouchers for shipboard inventory also
    understated the potential loss on excess, obsolete, and unserviceable inventory
    by $382.5 million. See the table in this finding for a summary of the
    understatements in journal entries for shipboard inventory.

    CSIS Process Changes. As a result of changes to logistics systems and the
    CSIS process, NAVSUP and the Navy Inventory Control Point have visibility of
    shipboard inventory, which they included in the March 31, 2000, CSIS.
    Accordingly, the shipboard inventory recorded in the CDB accounting records
    as of March 31, 2000, was comparable to the shipboard inventory in the CSIS
    as of March 31, 2000. The ratios developed from the CSIS included the
    shipboard inventory. Therefore, NAVSUP no longer needed calculations to
    separately revalue shipboard inventory. The use of separate calculations to
    revalue shipboard inventory that was included in the March 31, 2000, CSIS
    caused the estimated cost to repair material and the potential loss on excess,
    obsolete, and unserviceable inventory to be overstated by $234.0 million and
    $464.5 million, respectively.

    Capitalization of Aviation Depot-Level Repairable Inventory. NAVSUP did
    not modify procedures for compiling financial information on $842.3 million in
    shipboard inventories of aviation depot-level repairable inventory that was


                                        4
           capitalized* in the Navy WCF after March 31, 2000. Separate calculations to
           revalue shipboard inventory that was already included in the CSIS were not
           necessary. However, NAVSUP personnel needed to make separate calculations
           for inventory recorded in the CDB that was not included in the CSIS. Failure to
           make separate calculations caused the estimated cost to repair inventory and the
           potential loss on excess, obsolete, and unserviceable inventory to be understated
           by $63.3 million and $82.0 million, respectively.

           NAVSUP needed to perform separate calculations to reduce the value of the
           inventory capitalized between March 31, 2000, and June 30, 2000, from
           standard price to the latest acquisition cost. Because the shipboard inventory
           was in serviceable condition and held for current requirements, calculations of
           the estimated cost to repair and potential excess were not needed. The separate
           calculations for aviation depot-level repairable inventory would continue to be
           necessary until all aviation depot-level repairable inventory is capitalized into
           the Navy WCF.


In-Transit Site Inventory
           In extracting general ledger account balances from the CDB as of June 30,
           2000, for the revaluation of inventory, NAVSUP did not include the
           $2.9 million in general ledger account 152127, “Inventory In-Transit Between
           Storage Locations – Site Inventory.” General ledger account 152127 represents
           inventory on-hand at the storage activity that is being moved from one storage
           location to another. Only the Navy Fleet and Industrial Supply Centers use the
           general ledger account. The Fleet and Industrial Supply Centers account for
           inventory in the Uniform Automated Data Processing System and report
           summary financial information to the CDB. The omission of the account from
           the inventory revaluation calculations caused NAVSUP to understate its
           adjustments to inventory by $1.1 million because adjustments to reduce
           inventory to latest acquisition cost were understated by $0.6 million, and
           adjustments to the potential loss on excess, obsolete, and unserviceable
           inventory were understated by $0.5 million.


Summary
           The NAVSUP journal entries in the CDB, totaling $14.4 billion, to reduce the
           value of inventory from standard price to latest acquisition cost or net realizable
           value were understated by $554.3 million as identified in the following table.
           As a result, inventory was overstated by $554.3 million as of June 30, 2000.



*
    The “capitalization” process transferred inventory to the Navy WCF that was once part of the Navy
    General Fund. The Navy is nearing completion of the process for aviation depot-level repairable
    inventory in the Navy WCF. When inventory is capitalized in the Navy WCF, it is recorded in the
    CDB at standard price.

                                                     5
                            Understatement of Journal Entries
                                  to Revalue Inventory
                                   (dollars in millions)

                                                Loss on
                                 Estimated      Excess,
                                  Cost to     Obsolete, and   Surcharge      Total
     Adjustments Needed for       Repair      Unserviceable   Reduction    Adjustment

    CSIS process changes           $(234.0)        $(464.5)         0        $(698.5)

    Inventory capitalization          63.3            82.0          0            145.3

      Shipboard inventory           (170.7)         (382.5)         0           (553.2)

    In-transit site inventory          0__         ___(0.5)       _(0.6)    _    (1.1)

       Total                       $(170.7)        $(383.0)       $(0.6)     $(554.3)



    The Under Secretary of Defense (Comptroller) planned to move toward the use
    of the historical cost method for the financial presentation of inventory in the
    future. However, DoD would not be able to develop or implement the
    necessary changes in accounting and financial management of inventory for
    several years. The recommendations in the audit report, if implemented, in
    adjusting entries to the CDB discussed in this audit report would improve the
    accuracy of reported inventory for FY 2000. The changes are necessary
    whether or not the Navy uses the historical cost method.


Actions Initiated by the Naval Supply Systems Command
    We discussed the deficiencies with the NAVSUP personnel during the course of
    the audit. NAVSUP personnel agreed with our conclusions and initiated action
    to modify calculations for shipboard inventory in revaluation spreadsheets. The
    modification will limit calculations for shipboard inventory to inventory
    capitalized after the latest CSIS. In addition, NAVSUP is evaluating the
    completeness of the general ledger accounts extracted from the CDB and
    compiled as inventory in the revaluation spreadsheets.



Recommendations and Management Comments
    We recommend that the Commander, Naval Supply Systems Command,
    modify the calculation in the inventory revaluation spreadsheets to:


                                        6
       1. Discontinue making separate calculations to revalue shipboard
inventory from standard price to latest acquisition cost for inventory that is
included in the biannual Central Secondary Item Stratification.

       2. Separately revalue aviation depot-level repairable inventory that
has been capitalized in the Central Data Base after preparation of the
biannual Central Secondary Item Stratification until all aviation depot-level
repairable inventory is fully capitalized.

       3. Include the value of general ledger account 152127, “Inventory
In-Transit Between Storage Locations – Site Inventory,” in inventory
revaluation calculations.

Management Comments. The Assistant Secretary of the Navy (Financial
Management and Comptroller) concurred, stating that the Naval Supply Systems
Command has discontinued separate revaluation calculations for shipboard
inventory already included in the semiannual Central Secondary Item
Stratification. Also, the Naval Supply Systems Command modified calculations
in the July 2000 inventory revaluation spreadsheets to revalue only aviation
depot-level repairable inventory as we recommended. The Naval Supply
Systems Command is reviewing the completeness of general ledger accounts
comprising on-hand and in-transit inventory on the revaluation spreadsheets;
general ledger account changes, including the addition of account 152127, will
be made to the FY 2001 revaluation spreadsheets.




                                   7
Appendix A. Audit Process

Scope
    Work Performed. During this part of our audit of the FY 2000 Navy WCF
    financial statements, we evaluated the processes and formulas that the NAVSUP
    used to calculate information for journal vouchers that are used to revalue
    inventory from standard price to latest acquisition cost or net realizable value.
    We conducted separate audit work as of June 30, 2000, on the revaluation of
    inventory because prior audit work had rated inventory as a high-risk area for
    misstatement of the financial statements. As of June 30, 2000, NAVSUP
    personnel recorded journal entries in the CDB that revalued inventories from
    $32.3 billion at standard price to $17.9 billion at latest acquisition cost or net
    realizable value.

    DoD-Wide Corporate-Level Government Performance and Results Act
    Coverage. In response to the Government Performance and Results Act, the
    Secretary of Defense annually establishes DoD-wide corporate-level goals,
    subordinate performance goals, and performance measures. This report pertains
    to achievement of the following goal, subordinate performance goal, and
    performance measure.

           FY 2001 DoD Corporate-Level Goal 2: Prepare now for an uncertain
           future by pursuing a focused modernization effort that maintains U.S.
           qualitative superiority in key warfighting capabilities. Transform the
           force by exploiting the Revolution in Military Affairs, and reengineer the
           Department to achieve a 21st century infrastructure. (01-DoD-2)

           FY 2001 Subordinate Performance Goal 2.5: Improve DoD financial
           and information management. (01-DoD-2.5)

           FY 2001 Performance Measure 2.5.2: Achieve unqualified opinions
           on financial statements. (01-DoD-2.5.2)

    DoD Functional Area Reform Goals. Most major DoD functional areas have
    also established performance improvement reform objectives and goals. This
    report pertains to achievement of the following functional area objectives and
    goals.

           Financial Management Area. Objective: Strengthen internal controls.
           Goal: Improve compliance with the Federal Managers’ Financial
           Integrity Act. (FM-5.3)

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in DoD. This report provides coverage of
    the Defense Financial Management high-risk area.



                                        8
Methodology
    Our review covered the processes and formulas that the NAVSUP used to
    calculate journal entries to revalue inventory from standard price to latest
    acquisition cost or net realizable value. The NAVSUP entered logistics data
    from the March 31, 2000, CSIS and financial data from the CDB into
    spreadsheets to calculate information used in adjustments recorded in the CDB
    to revalue inventory from standard price to latest acquisition cost or net
    realizable value. We computed the magnitude of errors in the journal entries by
    inserting the corrected values into the spreadsheets that NAVSUP personnel
    used.

    Computer-Processed Data. Using the Uniform Inventory Control Point
    system, NAVSUP produced CSIS reports showing the stratification of Navy
    WCF inventory into different categories. We did not evaluate the stratification
    process, nor did we evaluate the general or application controls over the
    Uniform Inventory Control Point system. We concluded that the data were
    sufficiently reliable to meet the audit objective. Not evaluating the controls did
    not affect the results of the audit because our conclusions were based on the
    difference in calculations to modify inventory.

    Audit Type, Period, and Standards. We performed this financial related audit
    from June through August 2000, in accordance with auditing standards issued by
    the Comptroller General of the United States, as implemented by the Inspector
    General, DoD, subject to the limitations discussed in this appendix. We included
    tests of management controls considered necessary.

    Contacts During the Audit. We visited or contacted individuals and
    organizations in DoD. Further details are available on request.

Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26,
    1996, and DoD Instruction 5010.40, “Management Control (MC) Program
    Procedures,” August 28, 1996, requires DoD organizations to implement a
    comprehensive system of management controls that provides reasonable
    assurance that programs are operating as intended and to evaluate the adequacy
    of the management controls.

    Scope of Review of the Management Control Program. We reviewed the
    adequacy of the NAVSUP management controls over the revaluation of
    inventory. Because we did not identify a material weakness, we did not assess
    management’s self-evaluation of those controls.

    Adequacy of Management Controls. NAVSUP management controls over the
    revaluation of inventory were adequate in that we identified no material
    management control weaknesses. The problems identified in this report



                                         9
    represent methodologies rather than management control problems. The
    recommendations provide the Navy with the correct methodologies needed to
    accurately revalue shipboard inventories.



Prior Coverage
    The General Accounting Office and the Inspector General, DoD, have
    conducted multiple reviews related to financial statement issues. General
    Accounting Office reports can be accessed on the Internet at
    http://www.gao.gov. Inspector General, DoD, reports can be accessed on the
    Internet at http://www.dodig.osd.mil/audit/reports.




                                     10
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller/Chief Financial Officer)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Naval Inspector General
Auditor General, Department of the Navy
Commander, Naval Supply Systems Command

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organization
Director, Defense Finance and Accounting Service

Non-Defense Federal Organization
Office of Management and Budget




                                         11
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology,
  Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform




                                       12
Department of the Navy Comments




                  13
14
15
Audit Team Members

The Finance and Accounting Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of the Inspector, DoD,
who contributed to the report are listed below.


    F. Jay Lane
    Salvatore D. Guli
    Marvin L. Peek
    Joel K. Chaney
    Carrie A. Wade
    Mark J. Thomas
